*

SUPREME COURT OF THE STATE OF NEW YORK
Appellate Division, Fourth Judicial Department
1239
KA 15-01257
PRESENT: WHALEN, P.J., SMITH, CURRAN, WINSLOW, AND BANNISTER, JJ.
THE PEOPLE OF THE STATE OF NEW YORK, RESPONDENT,
V

MEMORANDUM AND ORDER

BENJAMIN BROWNLEE, DEFENDANT-APPELLANT.

TIMOTHY P. DONAHER, PUBLIC DEFENDER, ROCHESTER (BENJAMIN L. NELSON OF
COUNSEL), FOR DEFENDANT-APPELLANT.
SANDRA DOORLEY, DISTRICT ATTORNEY, ROCHESTER (LISA GRAY OF COUNSEL),
FOR RESPONDENT.
Appeal from a judgment of the Monroe County Court (Christopher S.
Ciaccio, J.), rendered June 3, 2015. The judgment convicted defendant
upon a jury verdict of criminal obstruction of breathing or blood
circulation.
It is hereby ORDERED that the judgment so appealed from is
unanimously affirmed.
Memorandum: Defendant appeals from a judgment convicting him
after a jury trial of criminal obstruction of breathing or blood
circulation (Penal Law § 121.11 [a]). We affirm.
We reject defendant's contention that the prosecution committed a
Brady violation by belatedly disclosing certain medical records that
purportedly established the victim's lack of injuries following the
alleged altercation with defendant.
"To establish a Brady violation
warranting a new trial, the defendant must show that (1) the evidence
is favorable to the defendant because it is either exculpatory or
impeaching in nature; (2) the evidence was suppressed by the
prosecution; and (3) prejudice arose because the suppressed evidence
was material" (People v Ulett, 33 NY3d 512, 515 [2019] [internal
quotation marks omitted] ; see Brady v Maryland. 373 TT.q S3, 87 T19631 ) .
Here, the medical records documenting the victim's lack of
injuries were favorable to defendant inasmuch as they "tend[ed] to
show that [he was] not guilty" (People v Garrett. 23 NY3d 878. 8.8_&r2014l, rearg denied 25 NY3d 1215 r2015L [internal quotation marks
omitted]). However, the People's failure to disclose the medical
records until six days before trial did not constitute the suppression
of those records because defendant was "afforded a meaningful
opportunity to use [the records] to cross-examine the People's
witnesses or as evidence-in-chief" (People v Burroughs, 64 AD3d 894,

-2-

1239
KA 15-01257

898 [3d Dept 2009], Iv denied 13 NY3d 794 [2009]; see People v
^ortiiorT0~NY2d86'a, 870 ri987l: of. People v Carver. 114~AD3d 1199.
1199 [4th Dept 2014]) .
Moreover, even assuming, arguendo, that the prosecution's delayin disclosure did constitute suppression, we conclude that the records
were not material because there was no " 'reasonable possibility' that
the failure to disclose the medical records contributed to the
verdict" (People v Vilardi. 76 NY2d 67. 77 ri990l; see generally
People v Roncr He, 34 NY3d 956, 959 [2019] ; People v McCray. 23 NY3d
193. 198-199 T20141 . rearer denied 24 NY3d 947 f2014l : Peonies
Fuentes 12 NY3d 259. 264-265 r2009l. rearo denied 13 NY3d 766
r2009l 1 . Finally, we further conclude that any alleged Brady
violation here is harmless. The People presented overwhelming
evidence of defendant's guilt—namely, the consistent testimony of
three eyewitnesses who described defendant's attack on the victim—and
there is no reasonable possibility that any error contributed to the
verdict (see People v Robinson, 267 AD2d 98] .9-81 T4th Deot 19991 . JLv
denied 95 NY2d 838 [2000]) .

Entered:

March 13, 2020

Mark W. Bennett
Clerk of the Court

£tate of Betti gork
Court of appeals
BEFORE: HONORABLE PAUL G. FEINMAN

THE PEOPLE OF THE STATE OF NEW YORK,
Respondent.
■against-

ORDER
DENYING
LEAVE

BENJAMIN BROWNLEE,
Appellant.

Appellant having applied for leave to appeal to this Court pursuant to Criminal Procedure
Law § 460.20 from an order in the above-captioned case;*
UPON the papers filed and due deliberation, it is
ORDERED that the application is denied.

Dated: July ^ 2020

Associate Judge
*Description of Order: Order of the Appellate Division, Fourth Judicial Department, entered
March 13, 2020, affirming a judgment of County Court, Monroe County, rendered June 3, 2015.

Additional material
from this filing is
available in the
Clerk's Office.

